APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the Arkansas Supreme Court
(May 20, 2021)........................................................... 1a
Opinion of the Arkansas Court of Appeals
(March 17, 2021) ....................................................... 2a
Mandate of the Arkansas Court of Appeals
(May 20, 2021) .................................................. 25a
Judgment of the Circuit Court of Garland
County, Arkansas (October 8, 2018) ...................... 27a
Decision of the Circuit Court of Garland County,
Arkansas (September 27, 2018) ............................. 29a
REHEARING ORDER
Order of the Arkansas Court of Appeals Denying
Petition for Rehearing (April 7, 2021) ................... 31a

App.1a
ORDER OF THE
ARKANSAS SUPREME COURT
(MAY 20, 2021)
OFFICE OF THE CLERK
ARKANSAS SUPREME COURT
625 Marshall Street
Little Rock, Ar 72201
________________________
Re: Supreme Court Case No. CV-19-134
Kimbro Stephens Insurance Trust and A.K.
Tennessee Irrevocable Residuary Trust v. James
E. Smith, Jr.; Kimberly Woodyard; and Smith
Akins & Gladden, P.A.
The Arkansas Supreme Court issued the following
order today in the above styled case:
“Appellants’ Petition and Amended Petition for
Review are denied. Womack, J., would dismiss as moot
the Petition for Review. Wood, J., not participating.”
Sincerely,
/s/ Stacey Pectol
Clerk
CC: J. Shane Cox
D. Kimbro Stephens
Donald H. Bacon and Martin A. Kasten
Garland County Circuit Court
(Case No. 26CV-16-27)

App.2a
OPINION OF THE
ARKANSAS COURT OF APPEALS
(MARCH 17, 2021)
ARKANSAS COURT OF APPEALS
DIVISION II
________________________
KIMBRO STEPHENS INSURANCE TRUST
and A.K. TENNESSEE IRREVOCABLE
RESIDUARY TRUST,
Appellants,
v.
JAMES E. SMITH, JR.; KIMBERLY WOODYARD;
and SMITH AKINS & GLADDEN, P.A.,
Appellees.
________________________
No. CV-19-134
Appeal from the Garland County
Circuit Court [No. 26CV-16-27] Honorable
John Homer Wright, Judge
Before: Rita W. GRUBER, Judge.
KLAPPENBACH and VAUGHT, JJ.
RITA W. GRUBER, Judge
The appellants, Kimbro Stephens Insurance Trust
and A.K. Tennessee Irrevocable Residuary Trust,
appeal the Garland County Circuit Court’s order
granting summary judgment in favor of appellees

App.3a
James E. Smith, Jr. (Smith), Kimberly Woodyard
(Woodyard), and the firm Smith Akins & Gladden,
P.A. (Smith-Akins) The circuit court determined that
the appellees were immune from liability under
Arkansas Code Annotated section 16-22-310 (Supp.
2019), the attorney-immunity statute, because the
appellants and the appellees were not in direct privity
of contract. The circuit court also determined that
neither of the exceptions to the privity requirement—
for fraud and misrepresentation and for third-party
beneficiaries of counsel’s services—applied.
On appeal, the appellants argue that the circuit
court erred when it determined that they failed to
offer proof of fraud to warrant an exception to direct
privity. The appellees have filed a motion to dismiss
the appeal for lack of jurisdiction, and they alternatively
assert that the appeal has no merit. We deny the
motion to dismiss and affirm the order granting summary judgment.
I.

Factual Background

Kimbro Stephens (Kimbro) is the beneficiary of
appellant Kimbro Stephens Insurance Trust. He was
formerly a beneficiary of appellant A.K. Tennessee
Irrevocable Trust, which, following a divorce, is now
exclusively for the benefit of Kimbro’s ex-wife, Daphna
Alice Stephens (Alice). Kimbro, Alice, and other members of the Stephens family owned various entities—
all using a variation of the name “Living Hope”—
that provided psychiatric services in Arkansas. The
factual background of the dispute between the appellants and the appellees involves separate federal
bankruptcy cases filed by two of those entities,
Living Hope Southwest, LLC (Southwest), and Living

App.4a
Hope Southeast, LLC (Southeast), which was represented by the appellees.
A. The Southwest Bankruptcy
The Southwest bankruptcy began when Pinewood
Enterprises L.C. (Pinewood) sued Southwest in the
Miller County Circuit Court for overdue lease payments
on a building that Southwest rented. Pinewood’s lawsuit and other circumstances led Southwest to file a
petition for reorganization under Chapter 11 of the
United States Bankruptcy Code on July 18, 2006.
The petition was filed in the United States Bankruptcy
Court for the Western District of Arkansas (Western
District), and it triggered an automatic stay of collection
by Southwest’s creditors, including Pinewood.
After Southwest filed its petition for bankruptcy,
it transferred its business to a new company, Southeast,
which Kimbro created on May 5, 2006, shortly before
Southwest filed its petition.1 This transfer became a
focal point of the Southwest bankruptcy following the
conversion of the bankruptcy petition from Chapter
11 to Chapter 7 in 2008.
The conversion to Chapter 7 led to the appointment
of a bankruptcy trustee (SW Trustee), who, in exercise
of her fiduciary duty to Southwest’s creditors, initiated
an adverse proceeding (AP) against Southeast in
2009. Specifically, the trustee filed a complaint that
challenged the postpetition transfer of assets from
Southwest to Southeast, alleging that Kimbro committed postpetition fraud by transferring
Southwest’s funds to Southeast and using Southwest’s
1 As a consequence of this transfer, Southeast was added as a
defendant to the Pinewood lawsuit in Miller County.

App.5a
human and financial resources to operate Southeast.
Later in 2009, the SW Trustee, Southeast, and the
Stephens family reached a settlement in the AP.
The AP settlement was reversed in October
2012, and shortly thereafter, the SW Trustee filed an
amended complaint in the Western District. The SW
Trustee again alleged that Southwest had made
unauthorized postpetition transfers to Southeast,
and she sought a constructive trust in favor of
Southwest “on a sufficient number of Southeast’s
assets which will compensate [Southwest] for the
wrongful transfer of assets for the use and benefit of
Southwest and its creditors.” The Western District
set the AP for trial on January 15, 2013.
According to the exhibits attached to the complaint
filed in the Garland County case, the relationship
between Kimbro and the appellees began to break
down shortly before the AP trial. In an affidavit, Mike
Grundy, the chief executive officer (CEO) of Southeast,
described a December 2012 meeting in which Smith
and Kimbro had a difference of opinion regarding
Southeast’s defense in the AP trial. According to
Grundy, Smith explained that it “was useless to
defend the [AP] case.” Kimbro, however, wanted to
put on a defense because an adverse judgment in the
AP “would be damaging to him and [Southeast] in
the upcoming trial in Miller County.” Grundy claimed
that Smith remained on the case despite twice
threatening to resign during the conversation.
The minutes of a January 3, 2013 “emergency”
meeting of Southeast’s board of directors further
demonstrated Kimbro’s and Smith’s differences of
opinion concerning trial strategy in the AP proceeding.
The minutes indicate that Smith again recommended

App.6a
that Southeast concede the case because Southeast
was formed “with the financial and human resources
of [Southwest],” as the SW Trustee alleged. Rather
than follow Smith’s advice, however, Kimbro “wanted
to defend the case . . . and put on witnesses and exhibits to prove and corroborate [that] no . . . assets were
transferred.” Therefore, according to the minutes,
Kimbro explained that he wanted to file a motion to
intervene in the AP trial, and Smith allegedly assured
Kimbro that he would not object to the motion to
intervene.
Grundy’s affidavit claimed, however, that the
appellees later reneged on Smith’s promise to stay
silent. He alleged that when the AP trial convened
on January 15, 2013, Woodyard told the bankruptcy
court that Southeast “was not in favor of the intervention and that [Kimbro’s] complaint was not proper.”
Grundy further alleged that the chairman of the
board, Steve Ward, subsequently attempted to terminate the appellees as Southeast’s counsel over the
allegedly reneged promise, but the bankruptcy judge
“denied a motion for continuance and allowed [the
appellees] to proceed with the [AP] trial anyway.”
According to Grundy, Smith “then proceeded to stipulate to all 82 or so exhibits submitted by [counsel for
the SW Trustee] without consulting with [Grundy]
about their relevance or accuracy.”
At the close of the AP trial, the bankruptcy judge
announced that the SW Trustee was entitled to a
judgment of $1.19 million against Southeast. The judge
also announced that he was taking under advisement

App.7a
the issue of whether the SW Trustee was entitled to
a constructive trust on Southeast’s assets.2
The day after the AP trial concluded—and while
the imposition of a constructive trust was still under
advisement—Kimbro, representing that he was Southeast’s attorney, and his brother, Greg, representing
the cross-claimants in Pinewood’s case in Miller
County, mailed a letter informing the Miller County
Circuit Court that Southeast and the cross-claimants
(also entities controlled by members of the Stephens
family) had settled the cross-claims and agreed to the
entry of a consent judgment. The consent judgment, as
it happened, purported to grant the cross-claimants a
constructive trust and an equitable lien on Southeast’s
assets and on the assets of appellant A.K. Tennessee
Irrevocable Trust.
B. The Southeast Bankruptcy
On February 27, 2012, while Pinewood’s appeals
from the AP settlement were ongoing, Southeast filed
a petition for Chapter 11 bankruptcy in the United
States Bankruptcy Court for the Eastern District of
Arkansas (Eastern District). The purpose of that
petition was to allow Southeast to continue operating
as it managed the ongoing legal proceedings in the
AP in the Western District and Pinewood’s lawsuit in
Miller County.
On January 25, 2013—shortly after the judgment
in the AP trial and Kimbro’s attempt to obtain a
consent judgment in Miller County—the SW Trustee
took the uncommon step of requesting the appointment
of a trustee in the Chapter 11 bankruptcy that South2 The bankruptcy judge ultimately denied the constructive trust.

App.8a
east had filed in the Eastern District.3 According to the
bankruptcy court, the motion was filed following
Kimbro and Greg’s attempt to obtain a constructive
trust in Miller County and “the board [of trustees’]
firing of [Southeast’s] counsel, Smith, in the midst of
the Southwest AP trial,” among other things.
After a hearing in which Smith and other witnesses testified, the bankruptcy court granted the
motion to appoint a trustee. In an order entered on
July 9, 2013, the court summarized its findings as
follows:
The Court bases its findings of cause on the
actions of Kimbro. Despite being an educated
professional well-acquainted with bankruptcy
(having been involved in multiple bankruptcy
proceedings including his own), Kimbro has
shown no respect for the bankruptcy process.
He has been dishonest about who controls
[Southeast] when in fact he controls [Southeast]. Kimbro’s actions prove that he is not
motivated by what is best for [Southeast]
and its creditors, but that he is motivated
by self-interest, which includes protecting
himself from further liability and preserving
3 In Chapter 11 cases, it is presumed that the management of
the debtor-company will remain in control of the business because it is “generally best suited to orchestrate the process of
rehabilitation for the benefit of creditors and other interests of
the estate.” Tradex Corp. v. Morse, 339 B.R. 823, 825–26 (D. Mass.
2006). In rare cases, a party in interest can request the appointment of a case trustee to assume control. See 11 U.S.C. § 1104(a)
(2018). The bankruptcy court appoints a case trustee “for cause,”
such as “fraud, dishonesty, incompetence, or gross mismanagement
of the affairs of the debtor[.]” 11 U.S.C. § 1104(a)(1).

App.9a
his income stream from [Southeast]. Kimbro
has taken actions on behalf of [Southeast]
that have frustrated [Southeast’s] efforts to
reorganize and violated [Southeast’s] fiduciary duties. Those actions. . . include: firing
[Southeast’s] counsel after opening statements
in a trial against [Southeast], attempting
to manipulate [Southeast] to allow him to
intervene in the Southwest AP, filing multiple
pleadings on behalf of [Southeast] without
court approval, and, of utmost importance,
agreeing to a consent judgment against
[Southeast] that awarded [the Miller County
cross-claimants] a constructive trust on all
of [Southeast’s] assets.
Specifically regarding the efforts to fire Smith as
Southeast’s counsel, the court found that
Kimbro was attempting to remove Smith
as [Southeast’s] counsel by conjuring up
malicious false accusations against Smith
including: (1) that he would not defend the
Southwest AP; (2) that he was cooperating
with the Southwest Trustee’s counsel
[Thomas] Streetman in an effort to lose the
Southwest AP trial; and (3) that he was not
acting in the best interest of [Southeast] by
not supporting Kimbro’s efforts to personally
intervene in the Southwest AP.
[...]
This court finds that the [SW Trustee], her
attorney, and Smith, as attorney for [Southeast],
acted pursuant to their obligations as delineated in the Bankruptcy Code. That the

App.10a
other parties, fearing loss of control and/or
payment, put their prior differences aside to
create an almost operatic performance under
oath during the hearings on the motions to
appoint a trustee to benefit themselves by
attacking Smith and Streetman who were
proceeding under the dictates of the Bankruptcy
Code.
Consequently, the court appointed a case trustee to
control Southeast while the Chapter 11 bankruptcy
was ongoing in the Eastern District.
C. Postjudgment Proceedings in the Southwest Bankruptcy
Following the appointment of the trustee, Kimbro
returned to the Western District and filed a pro se
motion for relief under Fed. R. Civ. P. 60(b) from the
$1.19 million judgment that followed the AP trial. As
he did in the Eastern District, he alleged that the
judgment should be set aside because Smith colluded
with counsel for the SW Trustee, Thomas Streetman,
to bring about a judgment against Southeast. In
particular, he alleged that Smith and Streetman colluded against him because (1) they lured him into
signing a stipulation dismissing him as a party in
the AP and then used that dismissal to preclude his
intervention; (2) Smith did not lodge various procedural
objections to the SW Trustee’s amended complaint;
(3) the attorneys agreed at a pretrial conference to a
quick trial date; (4) Smith did not argue that the AP
was barred by the statute of limitations; (5) Smith
stipulated to certain facts at trial; and (6) Smith and
Streetman withheld information and presented false
facts at trial. The SW Trustee responded by filing a

App.11a
motion for sanctions under Federal Bankruptcy
Rule 9011 (federal bankruptcy’s version of Rule 11),
asserting that Kimbro’s claims of collusion between
Smith and Streetman were frivolous.
The bankruptcy court denied the Rule 60(b) motion
and granted the SW Trustee’s motion for Rule 9011
sanctions. Kimbro appealed that order, and on January 29, 2015, the United States Bankruptcy Appellate
Panel for the Eighth Circuit affirmed. The appellate
panel agreed that Kimbro’s claims of collusion lacked
merit, saying that the bankruptcy court did not
clearly err when it found that Kimbro’s allegations of
collusion were “unfounded assumptions” and “blatant
illogical fallacies.”
D. The Case at Bar
About a year after the Eighth Circuit’s decision,
the appellants filed the complaint in this case. Based
on factual allegations that echoed the claims of collusion that Kimbro raised in federal court, the appellants asserted five claims against Smith-Akins: (1)
breach of express and implied contract; (2) intentional
misrepresentation; (3) fraud; (4) breach of standard
of practice; and (5) breach of fiduciary duties. The
complaint acknowledged that the appellants were not
in direct privity of contract with the appellees but
asserted that Smith’s alleged misconduct in falsely
promising that the appellees would not object to
Kimbro’s motion to intervene was fraud and intentional
misrepresentation that warranted an exception to
the direct-privity requirement under section 16-22310(a)(1). The appellants also alleged that an exception
for third-party beneficiaries was warranted under
section 16-22-310(a)(2)(A) because the appellees were

App.12a
“aware that the primary intent of the legal services
[was] to benefit the [Trusts].”
The appellees moved for summary judgment.4
As relevant here, they argued that they were immune
from liability under section 16-22-310 because they
were not in direct privity with the appellants, and
neither exception to the requirement had been established. In particular, the appellees said there was no
proof of “fraud or intentional misrepresentations” because the federal bankruptcy courts, in the opinions
and orders recounted above, determined that they
had acted appropriately. The appellants also could
not prove that they met the exception for third-party
beneficiaries because it “only applies if [the] attorney
has identified in writing both to the client and the
third party that the third party is entitled to rely on
the attorney’s professional services,” and there is “no
such writing” in this case.
The appellants responded that their proof established both exceptions to the direct-privity requirement in section 16-22-310. The appellees’ alleged false
promise not to object to Kimbro’s motion to intervene,
they said, constituted the kind of fraud and intentional
misrepresentation that establishes the exception under
section 16-22-310(a)(1). The appellants also claimed
that the minutes of the January 3, 2013 board
meeting as well as two documents that they executed
concerning Southeast’s defense in the Miller County
case a “Unanimous Consent and Resolution” and a
“Joint Defense Agreement”—were all “writings” that

4 The federal bankruptcy court opinions that we cite here were
among the exhibits attached to the motion.

App.13a
established the third-party-beneficiary exception under
section 16-22-310(a)(2)(A).
On September 27, 2018, the circuit court entered
a letter opinion that granted the motion for summary
judgment. The court rejected the appellants’ argument
that they established one of the exceptions to the directprivity requirement. The court found that the writings
that the appellants offered did not establish that
they were third-party beneficiaries of the appellees’
representation of Southeast. The circuit court also
found, in relevant part, that no fraud “was committed by the objection lodged by the Defendant
Woodyard to the proposed intervention filed by Mr.
Kimbro Stephens.” Consequently, on October 8, 2018,
the circuit court entered a judgment in favor of the
appellees “because there is no privity between the
[the appellants] and [the appellees] and this lack of
an attorney-client-relationship bars [the appellants’]
claims.”
Shortly thereafter, on October 22, the appellants
filed a motion to amend the court’s order granting
summary judgment and to grant a new trial in the
circuit court. Asserting that the motion was filed
“pursuant to Rule 52 and Rule 59 of the Arkansas
Rules of Civil Procedure,” the appellants requested
that the circuit court amend its findings to rule that
“a material question of fact remains regarding the
issue of ‘fraud’ as it relates to an exception to the
privity rule found in [section] 16-22-310(a)(1), and
. . . as a result, a new trial should be ordered.” In
particular, the appellants insisted that the exhibits
attached to their complaint proved that the appellees
knowingly made a false representation that they
would not object to Kimbro’s motion to intervene in

App.14a
the AP, and the appellants justifiably relied on that
alleged misrepresentation when they allowed the
appellees to remain on the case until the beginning
of the AP trial when, apparently, it was too late to get
a continuance to hire new counsel. They also claimed
that they suffered damage because the $1.19 million
adverse judgment in the AP led to the appointment
of the trustee in Southeast’s Chapter 11 bankruptcy
and thereby the loss of their ownership interest in
Southeast.
The circuit court did not enter an order disposing
of the appellants’ postjudgment motion; consequently,
it was deemed denied by operation of law thirty days
after it was filed, or November 22, 2018. See Ark. R.
App. P.–Civil (4)(b)(1) (2020). The appellants filed a
notice of appeal within thirty days of the “deemed
denied” date, on December 19, 2018. See id.
The appellees thereafter filed a motion to dismiss
the appeal while it was pending in this court arguing
that we lacked jurisdiction because the notice of appeal
was untimely. Specifically, the appellees argued that
motions to amend the judgment under Ark. R. Civ. P.
52 and motions for new trial under Ark. R. Civ. P. 59
are not available after summary judgment. A motion
under Rule 52, they claimed, is available only after
bench trials. The appellees further argued that a
motion for a new trial under Rule 59 is similarly
intended to raise objections to the conduct or outcome of a trial and, therefore, cannot toll the time to
file a notice of appeal from an order granting summary
judgment. On April 17, 2019, we passed the motion
to dismiss until the case was submitted.

App.15a
II. Jurisdiction
As they did in their motion to dismiss, the appellees argue that the appellants’ postjudgment motion
pursuant to Rule 52 and Rule 59 of the Arkansas
Rules of Civil Procedure did not extend the time for
filing the notice of appeal. Neither motion, they say,
is appropriate after a case ends in summary judgment.
The appellees contend that, consequently, the appeal
should be dismissed for lack of jurisdiction because
the notice of appeal, which the appellants filed more
than thirty days after the entry of summary judgment,
is untimely. We deny the motion to dismiss.
A notice of appeal generally “shall be filed within
thirty (30) days from the entry of the judgment, decree,
or order appealed from.” See Ark. R. App. P.–Civ. 4(a)
(2020). The filing of a postjudgment motion, however,
may extend that time. Rule (4)(b)(1) of the Arkansas
Rules of Appellate Procedure–Civil provides that
[u]pon the timely filing in the circuit court
of a motion for judgment notwithstanding
the verdict under Rule 50(b) of the Arkansas
Rules of Civil Procedure, a motion to amend
the court’s findings of fact or to make additional findings under Rule 52(b), a motion
for a new trial under Rule 59(a), or any
other motion to vacate, alter, or amend the
judgment made no later than 10 days after
entry of judgment, the time for filing a
notice of appeal shall be extended for all
parties.
(Emphasis added.) The rule further provides that
the starting date of the extension will be determined

App.16a
according to the date the circuit court acts—or chooses
not to act—on the motion:
The notice of appeal shall be filed within
thirty (30) days from the entry of the order
disposing of the last motion outstanding.
However, if the circuit court neither grants
nor denies the motion within thirty (30) days
of its filing, the motion shall be deemed
denied by operation of law as of the thirtieth
day, and the notice of appeal shall be filed
within thirty (30) days from that date.
Additionally, in determining whether a motion complies
with Rule 4(b)(1), the appellate court “look[s] to content
and substance—not to titles,” Muccio v. Hunt, 2012
Ark. 416, at 3, and our supreme court has determined that a postjudgment motion that requests a
new trial on one of the grounds enumerated in Rule
59(a)—even if it follows summary judgment—extends
the time for filing a notice of appeal. See id. at 4.
We agree that the appellants’ postjudgment
motion cannot be viewed as a motion for new trial that
would extend the time for filing the notice of appeal
under Rule 4(b)(1). Unlike the motion in Muccio, the
postjudgment motion here does not appear to raise
any of the grounds for new trial provided in Rule
59(a)(1). See Virgil v. Morgan, 2013 Ark. App. 675, at
5 (holding that a motion for new trial did not extend
the time to appeal an interlocutory order granting
summary judgment because the new-trial motion did
not raise a proper ground for a new trial).
Rule 52(b), moreover, generally does not apply to
orders granting summary judgment. See Summers v.
Byrd, 2012 Ark. App. 171, at 8–9, 392 S.W.3d 374,

App.17a
378–89.5 “A court grants a motion for summary judgment when it determines that there are no genuine
issues of material fact to be litigated, and therefore,
that the party is entitled to judgment as a matter of
law.” Id. “By definition,” therefore, “the action was
never ‘tried upon the facts’ to a jury or a court.” Id.
Rule 52(b), in contrast, “applies to trials where the
trial court made findings of fact, and the movant
requests the trial court to amend them.” Routh Wrecker
Serv., Inc. v. Washington, 335 Ark. 232, 237, 980
S.W.2d 240, 242 (1998). Rule 59(a) and Rule 52(b) both
make it clear, moreover, that “the trials contemplated
are bench trials.” Id. Accordingly, it does not appear
that the appellants’ postjudgment motion successfully
invoked either Rule 59(a) or Rule 52(b).
Even so, we hold that the time to file the notice
of appeal was extended in this case. The availability
of an extension is not limited to the postjudgment
motions listed in the rule but extends to “any other
motion to vacate, alter, or amend the judgment made
no later than 10 days after entry of judgment.” Ark.
R. App. P.–Civ. (4)(b)(1). The appellants, insisting
that genuine issues of material fact remained, effectively requested that the circuit court vacate its
order granting summary judgment and proceed with
a trial. They did so, moreover, within ten days of the
circuit court’s order. Accordingly, we deny the motion
to dismiss and turn to the merits of the appeal.6
5 There is an exception to this general rule for cases involving
claims under the Arkansas Civil Rights Act. See Fennell v. City
of Pine Bluff, 2016 Ark. App. 275, at 6, 492 S.W.3d 887, 891.
6 Rule 6 of the Arkansas Rules of Civil Procedure provides that
“when the period of time prescribed or allowed is less than fourteen

App.18a
III. The Merits
A. Standard of Review
A circuit court may grant summary judgment
only when it is apparent that no genuine issues of
material fact exist requiring litigation and that the
moving party is entitled to judgment as a matter of
law. Blevins v. Hudson, 2016 Ark. 150, at 3, 489 S.W.3d
165, 168. Once the moving party has established a
prima facie entitlement to summary judgment, the
opposing party must meet proof with proof and
demonstrate the existence of a material issue of fact.
Id. at 4, 489 S.W.3d at 168. On appellate review, this
court determines if summary judgment was appropriate based on whether the evidentiary items presented
by the moving party in support of the motion leave a
material fact unanswered. Richardson v. Union Pac.
R.R. Co., 2011 Ark. App. 562, at 2, 386 S.W.3d 77,
79. In doing so, this court views the evidence in the
light most favorable to the party against whom the
motion was filed resolving all doubts and inferences
against the moving party. Id. The burden is not on
the moving party to demonstrate that every fact is
undisputed but to show that reasonable minds could
not differ as to the conclusion to be drawn from them.
Blevins, 2016 Ark. 150, at 4, 489 S.W.3d at 168.
B. Fraud or Intentional Misrepresentation
The appellants first argue that their complaint
and exhibits demonstrate that they met the exception
to the direct-privity requirement for fraud or intentional
(14) days, intermediate Saturdays, Sundays, or legal holidays
shall be excluded from the computation.”

App.19a
misrepresentation. They assert that the appellees
made a false representation of material fact when they
told those in control of Southeast that they would not
object to Kimbro’s motion to intervene in the Southwest
AP. The appellants further contend that the appellees
were aware that their continued employment as Southeast’s counsel hinged on their alleged promises not to
object, and the appellants justifiably relied on those
promises when they did not terminate the appellees’
representation prior to the AP trial. Finally, the
appellants claim that they suffered damages because
Smith’s alleged poor performance in the AP started a
chain of events that led to “the appointment of a
Chapter 11 Trustee [in the Eastern District], advocated
by Smith, directly leading to the [the appellants’] injury
by the loss of their ownership interest in [Southeast].”
We affirm.7
As relevant here, the attorney-immunity statute,
Arkansas Code Annotated section 16-22-310(a), provides that
[n]o person licensed to practice law in
Arkansas and no partnership or corporation
of Arkansas licensed attorneys or any of its
employees, partners, members, officers, or
shareholders shall be liable to persons not
in privity of contract with the person, partnership, or corporation for civil damages
resulting from acts, omissions, decisions, or
7 As the appellees observe in their brief, the appellants appear to
have abandoned their claim that they were third-party
beneficiaries as provided in section 16-22-310(a)(2). Accordingly,
we confine our discussion to the merits of the appellants’ claim
under section 16-22-310(a)(1).

App.20a
other conduct in connection with professional
services performed by the person, partnership
or corporation, except for:
(1) Acts, omissions, decisions, or conduct
that constitutes fraud or intentional misrepresentations.
Privity of contract is defined as “that connection or
relationship which exists between two or more contracting parties,” and our supreme court has “narrowly
construed the privity requirement to require direct
privity between the plaintiff and the attorney or
entity to be held liable for legal malpractice.” Giles v.
Harrington, Miller, Neilhouse & Krug, 362 Ark. 338,
347, 208 S.W.3d 197, 203 (2005). The supreme court
has also observed that the language in the statute
“is precise and clear and reveals that the contract
contemplated by the statute relates to a contract for
professional services performed by the attorney and
the client.” Id.
The appellants do not appear to dispute that
only Southeast was in direct privity of contract with
the appellees. The bankruptcy court, after all, appointed
the appellees to represent only Southeast. They assert,
however, that the appellees cannot be held immune
because of their alleged fraudulent promise not to
object to Kimbro’s motion to intervene in the AP. We
disagree.
In order to invoke the fraud exception to the contractual-privity requirement in section 16-22-310, a
plaintiff must show (1) a false representation of
material fact; (2) knowledge that the misrepresentation
is false or that there is insufficient evidence upon which
to make that representation; (3) intent to induce action

App.21a
or inaction in reliance upon the representation; (4)
justifiable reliance on the representation; and (5)
damage suffered as a result of that reliance. See
Calandro v. Parkerson, 327 Ark. 131, 137, 936 S.W.2d
755, 759 (1997). Even assuming that the appellants
offered proof of the first three elements of fraud, they
have not raised a genuine issue of material fact
regarding justifiable reliance and causation.
No facts support the claim that the appellants
justifiably relied on the alleged misrepresentation
when they decided (they claim) not to terminate the
appellees’ representation before the AP trial. The
appellants never had the unfettered ability to hire or
fire—the appellees as counsel for Southeast—particularly on the basis that the appellees interfered with
Kimbro’s desire to personally intervene in the AP.
Indeed, the appellees represented only the interests of
Southeast’s estate in bankruptcy, not Southeast’s
principals or management, and not the appellants.
See In re Kohl, 95 F.3d 713, 714 (8th Cir. 1996). Consequently, Southeast could not employ the appellees
without the bankruptcy court’s approval, see 11 U.S.C
§ 327(a), and, as the Eastern District determined,
Southeast did not have “an unbridled right to . . . fire
counsel as it chooses if that decision is based on the
personal interests of [Southeast’s] principals instead
of the best interests of the estate.” Therefore, the
circuit court did not err by granting the motion for
summary judgment because the appellants could not
justifiably rely on the appellees’ alleged misrepresentation that they would not object to the motion to
intervene.
The appellants’ fraud claim also fails because
they do not offer facts showing that the alleged mis-

App.22a
representation caused the ultimate injury that they
claim—loss of their ownership interest in Southeast
upon the appointment of the Chapter 11 trustee. The
federal courts, as an initial matter, soundly rejected
as “unfounded assumptions” and “blatant illogical
fallacies” Kimbro’s assertions that the AP judgment
against Southeast resulted from any “collusion” or
other inappropriate action by Smith or the SW
Trustee’s counsel. Even so, the adverse outcome in
the AP—or the appellees’ continued representation
thereafter—had nothing to do with the appointment
of the Chapter 11 trustee in the Eastern District
case. Rather, as the Eastern District made clear, a
trustee was appointed because of the fraudulent
actions of Kimbro himself, including
firing [Southeast’s] counsel after opening
statements in a trial against [Southeast],
attempting to manipulate [Southeast] to allow
him to intervene in the Southwest AP, filing
multiple pleadings on behalf of [Southeast]
without court approval, and, of utmost importance, agreeing to a consent judgment against
[Southeast] that awarded [the Miller County
cross-claimants] a constructive trust on all
of [Southeast’s] assets.
We hold, therefore, that the circuit court did not err
by granting the appellees’ motion for summary judgment.
C. Other Intentional Torts
The appellants next argue that the circuit court
erred by granting the motion for summary judgment
because the allegations in their complaint made a
prima facie case that the appellees committed other

App.23a
intentional torts, including fraud in the inducement,
abuse of process, and conversion, that warranted
applying the exception in section 16-22 310(a)(1). We
disagree.
Briefly, section 16-22-310(a)(1) limits the privity
exception to “acts, omissions, decisions, or conduct
that constitutes fraud or intentional misrepresentation”
and, by its plain language, does not include other
intentional torts. Additionally, while a federal bankruptcy court has held that language to include intentional torts other than fraud and misrepresentation,
see Almand v. Benton Cnty., 145 B.R. 608, 617 (W.D.
Ark. 1992), our supreme court still has not squarely
addressed that question. Born v. Hosto & Buchan,
PLLC, 2010 Ark. 292, at 7–8, 372 S.W.3d 324, 331
(observing that Almand held that the exception did
not apply to intentional torts and assumed for sake
of discussion that an attorney could be liable for
abuse of process); Wiseman v. Batchlor, 315 Ark. 85,
90, 864 S.W.2d 248, 250– 51 (1993) (rejecting claim
of constructive fraud because, citing Almand, “[t]he
exception appears to be one for intentional actions”);
see also First Ark. Bank & Tr., Trustee v. Gill, Elrod,
Ragon, Owen, & Sherman, P.A., 2013 Ark. 159, at 12–
13, 427 S.W.3d 47, 55 (Baker, J., dissenting) (citing
Almand and Wiseman to dispute the majority’s holding
that constructive fraud warrants the exception).
Moreover, even if we assume that section 16-22310(a)(1) includes other intentional torts, the appellants
cannot demonstrate any causal connection between
the alleged additional torts and the injury they claim—
the loss of their ownership interest when the Eastern
District appointed the Chapter 11 trustee. As we
recounted above, the bankruptcy court made it abun-

App.24a
dantly clear that Kimbro’s fraudulent conduct—and
nothing else warranted the appointment. Accordingly,
we affirm.
IV. Conclusion
We deny the appellees’ motion to dismiss because
the appellants filed a timely postjudgment motion that
extended the time to file the notice of appeal under
Ark. R. App. P.–Civ. 4(b)(1). On the merits, we affirm
the order granting the appellees’ motion for summary
judgment. The appellees were immune from liability
under section 16-22-310(a) because they were not in
direct privity of contract with the appellants, and the
appellants failed to offer proof that there was fraud,
misrepresentation, or an intentional tort that
warranted the exception provided in section 16-22310(a)(1).
Affirmed.
KLAPPENBACH and VAUGHT, JJ., agree.

App.25a
MANDATE OF THE
ARKANSAS COURT OF APPEALS
(MAY 20, 2021)
ARKANSAS COURT OF APPEALS
DIVISION II
________________________
KIMBRO STEPHENS INSURANCE TRUST
and A.K. TENNESSEE IRREVOCABLE
RESIDUARY TRUST,
Appellants,
v.
JAMES E. SMITH, JR.; KIMBERLY WOODYARD;
and SMITH AKINS & GLADDEN, P.A.,
Appellees.
________________________
Court of Appeals Case No. CV-19-134
Appeal from the Garland County
Circuit Court (26CV-16-27)
This Appeals was Submitted to the Arkansas Court
of Appeals on the record of the Garland County Circuit
Court and Briefs of the Respective parties. After Due
Consideration, it is the Decision of the Court that the
Judgment of the Circuit Court is Affirmed; Motion to
Dismiss Denied.
Gruber, J., Authored the Opinion of the Court,
in which Klappenbach and Vaught, JJ., agree.

App.26a
It is also Ordered that the Appellants shall pay
the Appellees $138.00 for Briefs Costs in the Appeal.
In Testimony, that the above is a True and Correct copy of the Judgment if the Arkansas Court of
Appeals, I, Stacey Pectol, Clerk, Set My Hand and
Affix my Official Seal, on this 20th day of May, 2021.
/s/ Stacey Pectol
Clerk

App.27a
JUDGMENT OF THE CIRCUIT COURT OF
GARLAND COUNTY, ARKANSAS
(OCTOBER 8, 2018)
IN THE CIRCUIT COURT OF
GARLAND COUNTY, ARKANSAS
________________________
KIMBRO STEPHENS INSURANCE TRUST
and A.K. TENNESSEE IRREVOCABLE
RESIDUARY TRUST,
Plaintiffs,
v.
JAMES E. SMITH, JR.; KIMBERLY WOODYARD;
and SMITH AKINS & GLADDEN, P.A.,
Defendants.
________________________
No. 26CV-2016-27
Before: John HOMER WRIGHT, Judge.
The Defendants filed a Motion for Summary
Judgment. Plaintiffs responded. Both sides agreed that
the Court could decide the Motion without the need
for a hearing. Based on the pleadings and all matters
before the Court, the Motion for Summary Judgment
should be granted because there is no privity between
the Plaintiffs and the Defendants and this lack of an
attorney client relationship bars Plaintiffs’ claims.

App.28a
The Complaint of the Plaintiffs is hereby dismissed
with prejudice.
IT IS SO ORDERED.
/s/ John Homer Wright
Judge
Date: October 8, 2018
Prepared by:
Donald H. Bacon, Ark. Bar # 78007
FRIDAY, ELDREDGE & CLARK, LLP
400 West Capitol Avenue, Suite 2000
Little Rock, Arkansas 72201
Attorneys for Defendants

App.29a
DECISION OF THE CIRCUIT COURT OF
GARLAND COUNTY, ARKANSAS
(SEPTEMBER 27, 2018)
JOHN HOMER WRIGHT
Circuit Judge-Division One
18th Judicial Circuit-East
501 Ouachita Avenue, Suite 301
Hot Springs, Arkansas 71901
Phone (501) 321-1333-Fax (501) 623-5149
E-mail: jwriehtl@garlandcountv.org
________________________
To: Kimbro Stephens Shane Cox, Q. Byrum Hurst,
Donald Bacon
Fax: 501-400-8190, 623-9391, 501-244-5352
Re: Kimbro Stephens Insurance Trust, et al v.
James Smith, Jr., Et al; Garland County
Circuit Court Case No.:CV-2016-27-1
Dear Attorneys:
The Motion for Summary Judgment filed by the
Defendants is granted. The Defendants’ Motion alleged
three grounds:
1.

There is no privity between the plaintiffs and
the defendants and this lack of an attorneyclient relationship bars plaintiffs’ claims.

2.

Plaintiffs’ claims are barred by the doctrines
res judicata and collateral estoppel.

3.

The applicable statute of limitation bars some
or all of plaintiffs' claims.

App.30a
I do not address claims 2 and 3 because I find
that the Motion should be granted based on the first
argument.
Ark Code Ann.§ 16-22-310 permits only those in
direct privity with attorneys to file legal malpractice
actions. There are two narrow exceptions to the direct
privity requirement, “fraud or intentional” misconduct
or third-party beneficiary.
The Joint defense agreement referred to by both
parties, and relied upon by the Plaintiffs, provides, in
part:
“Nothing contained herein shall be deemed
create an attorney client relationship or duty
of loyalty between any counsel and anyone
other than the client of that counsel either
expressly or by implication.”
Both of the Plaintiffs were parties to this agreement. I cannot escape the conclusion that it is acknowledged by this document that the Defendants
represented LHSE and no other entity.
Nor do I find that fraud was committed upon the
Plaintiffs by the objection lodged by the Defendant
Woodyard to the proposed intervention filed by Mr.
Kimbro Stephens. If there was fraud committed it
was committed against LHSE, not a party here.
Mr. Bacon should draft and circulate a precedent.
Sincerely,
/s/ John Homer Wright
Circuit Judge

App.31a
ORDER OF THE
ARKANSAS COURT OF APPEALS
DENYING PETITION FOR REHEARING
(APRIL 7, 2021)
OFFICE OF THE CLERK
ARKANSAS COURT OF APPEALS
625 Marshall Street
Little Rock, AR 72201
________________________
Re: Court of Appeals Case No. CV-19-134

Kimbro Stephens Insurance Trust and A.K.
Tennessee Irrevocable Residuary Trust v. James
E. Smith, Jr.; Kimberly Woodyard; and Smith
Akins & Gladden, P.A.

The Arkansas Court of Appeals issued the
following order today in the above styled case:
“Appellants’ Petition for Rehearing is denied.
Murphy, J., not participating.”
Sincerely,
/s/ Stacey Pectol
Clerk
CC: J. Shane Cox and Kimbro Stbphens
Donald H. Bacon and Martin A. Kasten
Garland County Circuit Court
(26CV-16-27)

